No. 19-1225
IN THE

Supreme Court of the United States
————
PAUL HUNT,
Petitioner,

v.

BOARD OF REGENTS OF THE UNIVERSITY SYSTEM OF
NEW MEXICO et al.,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit
————
MOTION FOR LEAVE TO FILE BRIEF
AND BRIEF OF AMICUS CURIAE OF THE
JOSEPH L. BRECHNER CENTER FOR
FREEDOM OF INFORMATION, STUDENT
PRESS LAW CENTER, THE ELECTRONIC
FRONTIER FOUNDATION AND THE
NATIONAL COALITION AGAINST
CENSORSHIP, FILED IN SUPPORT OF
APPELLANT, SEEKING REVERSAL
————
FRANK D. LOMONTE
THE BRECHNER CENTER FOR
FREEDOM OF INFORMATION
3208 Weimer Hall
Gainesville, FL 32611
(352) 392-2273
flomonte@ufl.edu

MICHAEL C. HIESTAND
Counsel of Record
STUDENT PRESS LAW CENTER
1608 Rhode Island Ave NW
Suite 211
Washington, DC 20036
(202) 785-5450
mhiestand@splc.org

Counsel for Amicus Curiae
May 18, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

MOTION FOR LEAVE TO
FILE BRIEF AMICUS CURIAE
Pursuant to Supreme Court Rule 37.2, Amici the
Brechner Center for Freedom of Information, the
Student Press Law Center, the Electronic Frontier
Foundation and the National Coalition Against Censorship (collectively, “Amici”) respectfully move for
leave to file the accompanying brief amicus curiae in
support of Petitioner-Appellant Paul Hunt’s petition
for a writ of certiorari.
Petitioner has consented to the filing of this brief.
Respondents have withheld consent to the filing of this
brief. Accordingly, this motion for leave to file is
necessary.
Amici are, collectively, organizations that advocate
on behalf of the First Amendment rights of all citizens,
in particular young people, to enjoy the full benefits
of digital citizenship, including the use of online
technologies during their off-campus, out-of-school
hours to engage in discourse on issues of social and
political concern. This case implicates the core concerns of the Amici organizations and the constituents
they serve. Amici have appeared repeatedly before
this Court and before state and federal appeals courts
nationally as friend-of-the-court where a case, like this
one, raises the prospect of fundamentally altering the
legal landscape not just for the parties involved but for
all speakers. Amici filed a brief accepted by the Tenth
Circuit U.S. Court of Appeals in the case below, and
have familiarity with the factual and legal issues that
could be beneficial to inform the Court’s deliberations.
Because this case is the first of its kind to hold that
public institutions of higher education may discipline
speakers for non-disruptive political speech in their
off-hours time, and may compel speakers to rescind

and rewrite their political remarks to be more “civil,”
it portends a radical shift in settled First Amendment
principles that warrant especially close consideration
by the Court.
Because of their combined many decades’ worth of
history providing both direct legal representation as
well as amicus support on cases of this kind, in which
the freedom of online political speech faces existential
threats, Amici believe they can provide an addition
depth of perspective as to the potentially sweeping
impact of the ruling below.
Respectfully submitted,
FRANK D. LOMONTE
THE BRECHNER CENTER FOR
FREEDOM OF INFORMATION
3208 Weimer Hall
Gainesville, FL 32611
(352) 392-2273
flomonte@ufl.edu

MICHAEL C. HIESTAND
Counsel of Record
STUDENT PRESS LAW CENTER
1608 Rhode Island Ave NW
Suite 211
Washington, DC 20036
(202) 785-5450
mhiestand@splc.org

Counsel for Amicus Curiae
May 18, 2020

QUESTION PRESENTED
Can a state university discipline a college student
for core political speech, voiced off campus, because
the speech is presented in an offensive manner,
contrary to the Court's ruling in Morse v. Frederick
that “offensiveness” does not deprive speech of First
Amendment protection against discipline?

(i)

ii
CORPORATE DISCLOSURE STATEMENTS
Amicus, the Joseph L. Brechner Center for Freedom
of Information is an academic unit of the University of
Florida, a public institution of higher education. The
Center does not issue stock and is neither owned by,
nor is the owner of, any other corporate entity in part
or in whole.
Amicus, the Student Press Law Center is a nonprofit
corporation incorporated under the laws of the District
of Columbia with offices in Washington, D.C. The
Center does not issue stock and is neither owned by
nor is the owner of any other corporate entity in part
or in whole. The corporation is operated by a 15member Board of Directors.
Amicus, the Electronic Frontier Foundation (EFF)
does not have a parent corporation and no publicly
held corporation owns 10% or more of its stock.
Amicus, the National Coalition Against Censorship
(NCAC) is an IRS 501(c)(3) nonprofit corporation
organized under the laws of New York with offices in
New York City, N.Y. It neither has ownership in, nor
is owned by, any other corporate entity in whole or in
part.

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

CORPORATE DISCLOSURE STATEMENTS ...

ii

TABLE OF AUTHORITIES ................................

iv

INTEREST OF AMICI CURIAE ........................

1

SUMMARY OF ARGUMENT .............................

3

ARGUMENT ........................................................

5

I. Punishing a Student for Off-Campus
Speech Solely Because it is Offensive
Contravenes This Court’s Opinion in
Morse v. Frederick .....................................

5

II. Political Speech Addressing Matters of
Public Concern is Entitled to the Highest
Constitutional Protection .........................

6

III. College Students Enjoy Strong First
Amendment Rights, Especially OffCampus .....................................................

9

IV. Tinker Provides Ample Notice That a
“Respectful Speech” Policy is Unconstitutional, Especially When Applied to OffCampus Speech on Personal Time ...........

12

V.

There is no Diminished First Amendment Protection for Speech in a Professional Training Program ..........................

15

VI. Compelling a Speaker to Moderate His
Political Expression Violates Clearly
Established Supreme Court Precedent ....

19

CONCLUSION ....................................................

23

(iii)

iv
TABLE OF AUTHORITIES
CASES

Page(s)

Agency for Int’l Dev. v. Alliance for
Open Society Intern.,
570 U.S. 205 (2013) ...................................

14

Ashcroft v. American Civil Liberties Union,
535 U.S. 564 (2002) ...................................

8

Bell v. Itawamba County Sch. Dist.,
799 F.3d 379 (5th Cir. 2015) .....................

12

Boos v. Barry,
485 U.S. 312 (1988) ...................................

8

Center for Bio–Ethical Reform, Inc. v. Black,
234 F.Supp.3d 423 (W.D.N.Y. 2017) ........

10

Connick v. Myers,
461 U.S. 138 (1983) ...................................

7

Doe v. Univ. of Mich.,
721 F. Supp. 852 (E.D. Mich. 1989) .........

18

Healy v. James,
408 U.S. 169 (1972) ...................................

9

Hunt v. Bd. of Regents,
338 F.Supp.3d 1251 (D.N.M. 2018) ..........

21

Keefe v. Adams,
840 F.3d 523 (8th Cir. 2016) ......... 17, 18, 19, 20
Keyishian v. Board of Regents,
385 U.S. 589 (1967) ...................................

9

McCauley v. Univ. of Virgin Islands,
618 F.3d 232 (3d Cir. 2010) ......................

10

Miami Herald Pub’g Co. v. Tornillo,
418 U.S. 241 (1974) ...................................

21

v
TABLE OF AUTHORITIES—Continued
Page(s)
Morse v. Frederick,
551 U.S. 393 (2007) ...................................

5, 6

Nat’l Gay Task Force v. Bd. of Educ.
of City of Okla. City,
729 F.2d 1270 (10th Cir. 1984) ................. 20, 21
Nat’l Inst. of Family & Life Advocates
v. Becerra,
138 S. Ct. 2361 (2018) ..................... 5, 15, 16, 17
Packingham v. North Carolina,
137 S. Ct. 1730, 1733 (2018) .....................

15

Papish v. Bd. of Curators of Univ.
of Missouri,
410 U.S. 667 (1973) ...................................

11

Reno v. American Civil Liberties Union,
521 U.S. 844 (1997) ...................................

15

Riley v. Nat’l Federation of Blind,
487 U.S. 781 (1988) ...................................

21

Rosenberger v. Rector & Visitors of
Univ. of Va.,
515 U.S. 819 (1995) ................................... 9, 10
Schoeller v. Bd. of Registration of
Funeral Dirs.,
977 N.E.2d 524 (Mass. 2012) .................... 18, 19
Shelton v. Tucker,
364 U.S. 479 (1960) ...................................

9

Snyder v. Phelps,
562 U.S. 443 (2011) ...................................

7, 8

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Terminiello v. City of Chicago,
337 U.S. 1 (1949) .......................................

7

Tinker v. Des Moines Indep. Cmty.
Sch. Dist.,
393 U.S. 503 (1969) ..................................passim
United States v. Alvarez,
567 U.S. 709 (2012) ...................................

8

United States v. Stevens,
559 U.S. 460 (2010) ...................................

20

Wash. State Grange v. Wash. State
Republican Party,
525 U.S. 442 (2008) ...................................

20

Watts v. United States,
394 U.S. 705 (1969) ...................................

8

West Virginia Bd. of Educ. v. Barnette,
319 U.S. 624 (1943) ...................................

22

Wollschlaeger v. Governor,
848 F.3d 1293 (11th Cir. 2017) .................

16

CONSTITUTION
U.S. Const. amend. I ...................................passim
OTHER AUTHORITIES
David Hudson, Thirty Years of Hazelwood
and its Spread to College and University
Campuses, 61 HOW. L.J. 491 (Spring
2018) ..........................................................

17

Lindsie Trego, When a Student’s Speech
Belongs to the University: Keefe, Hazelwood, and Tatro, 16 FIRST AMEND. L.R.
98 (Fall 2017) ............................................

17

INTEREST OF AMICI CURIAE 1
The Brechner Center for Freedom of Information
(the “Brechner Center”) in the College of Journalism
and Communications at the University of Florida in
Gainesville is a center of research dedicated to
advancing access to civically essential information.
The Center’s focus on encouraging public participation
in government decision-making is grounded in the
belief that a core value of the First Amendment is
its contribution to democratic governance. Since its
founding in 1977, the Brechner Center has served as a
source of academic research and expertise about the
law of gathering and publishing news. The Center
is exercising the academic freedom of its faculty to
express scholarly views, and is not submitting this
brief on behalf of the University of Florida or the
University of Florida Board of Trustees.
The Student Press Law Center (“SPLC”) is a nonprofit, non-partisan organization that, since 1974, has
been the nation’s only legal assistance agency devoted
to educating high school and college journalists about
the rights and responsibilities embodied in the First
Amendment. The SPLC provides free legal information and educational materials for student journalists, and its legal staff jointly authors the widely used
media-law text, Law of the Student Press. Because of
the heavy censorship of on-campus student journalism, students are increasingly taking their speech off
1

Pursuant to Sup. Ct. R. 37 counsel for amici curiae state that
no party’s counsel authored this brief in whole or in part; no party
or party’s counsel made a monetary contribution intended to fund
the preparation of submission of this brief; no person other than
the amici curiae, its members or its counsel made a monetary
contribution intended to fund the preparation or submission of
this brief; and written consent to all parties was timely requested.

2
campus to address issues important to their lives
outside of school-supervised publication. The SPLC
consequently has special concern for maintaining the
safety of non-school-funded websites as places where
young journalists can call public attention to problems
in their schools without fear of government censorship. Although this case does not involve student
journalism, the district court’s logic and ultimate
conclusions could be applied to student journalists in
a way that greatly circumscribes their ability to speak
on matters of public concern.
The Electronic Frontier Foundation (“EFF”) is a
non-profit civil liberties organization that has worked
for 30 years to protect consumer interests, innovation,
and free expression in the digital world. EFF and its
more than 30,000 dues-paying members have a strong
interest in helping the courts and policy-makers apply
First Amendment principles in a manner that protects
the constitutional rights of those who use technology
to communicate. EFF works directly with students,
student journalists, and young adult community activists to increase awareness and facilitate engagement
in advocacy for digital freedom issues. EFF frequently
assists students of all educational levels who are
threatened with disciplinary action from school officials who seek to impose their authority over student's
off-campus, online activities, and recognizes that such
attempts pose a serious infringement on students'
First Amendment rights. EFF has a strong interest in
maintaining this Court's landmark holding in Tinker
as a shield against infringements on student's speech
rights rather than as a sword to punish off-campus
speech.

3
The National Coalition Against Censorship (NCAC)
is an alliance of more than 50 national non-profit
literary, artistic, religious, educational, professional,
labor, and civil liberties groups that are united in
their commitment to freedom of expression. Since its
founding in 1974, NCAC has worked through education and advocacy to protect the First Amendment
rights of thousands of authors, teachers, students,
librarians, readers, artists, museum-goers, and others
around the country. NCAC is particularly concerned
about laws affecting online speech which are likely to
have a disproportionate effect on young people who
use social media as a primary means of communication, may engage in ill-considered but harmless speech
online, and may employ abbreviated and idiosyncratic
language that is subject to misinterpretation. NCAC
joins this brief to assist the Court in understanding
the dangers posed by the decision under review.2
SUMMARY OF ARGUMENT
When a college student speaks on personal time
outside the confines of the campus to a willing audience of social media users, the college’s legitimate
interest in regulating the student’s speech is at its
nadir; particularly, when that speech is being regulated because some find it offensive. This Court has
rejected the idea that the offensiveness of speech alone
can be the basis for punishing speech, even in the
school setting.

2

NCAC’s members include organizations such as the American
Civil Liberties Union, Authors Guild, American Association of
University Professors, PEN American Center, and the National
Council of Teachers of English. The views presented in this
brief, however, are those of NCAC alone and do not necessarily
represent the views of any of its members.

4
This case involves a college’s overreach of disciplinary authority into an adult-age student’s political
speech, which was punished solely on the grounds
that it offended one or more audience members who
voluntarily encountered it. The speaker, Paul Hunt,
did not threaten violence, commit libel or otherwise
step outside the boundaries of what the First Amendment protects. Nevertheless, the Tenth Circuit erred
in finding that no clearly-established law would have
put Respondents3 on notice that a state agency has
no power to punish a student’s off-campus political
speech on the grounds of a vague “respectful speech”
policy.
Contrary to the decision below, the existence of
clearly established law does not turn on locating
precedent that perfectly replicates the facts of this
case. The law is clearly established where, as here,
fundamental legal principles gave government officials fair notice that censoring speech would be unlawful. This Court’s First Amendment jurisprudence
afforded Respondents clear warning that punishing
Mr. Hunt’s speech would be unconstitutional. This
Court’s ruling in Tinker v. Des Moines Indep. Cmty.
Sch. Dist., 393 U.S. 503, 511 (1969), set a high bar—
proof of a material and substantial disruption—before
a K-12 school may discipline a child for on-campus
speech to a captive listening audience. It is inconceivable that a less demanding burden would apply when
the speaker is not a child, when the speech is not oncampus, and when the audience is not captive.

3

For simplicity, the collective Defendant/Appellees will be
referred to as “the University,” except where the status of
particular defendants is material.

5
The question in this case is whether colleges
can discipline students for non-disruptive, off-campus
speech merely because the college feels the speech is
“unprofessional” or offensive. Answering “yes” to this
question would put far too much discretion in the
hands of government institutions to silence critics and
whistleblowers, as well as directly undermine what
this Court said in Morse v. Frederick, 551 U.S. 393, 409
(2007). As this Court has recently re-emphasized,
there is no categorical “professional speech” exception
to the First Amendment. Nat’l Inst. of Family & Life
Advocates v. Becerra, 138 S. Ct. 2361 (2018). This
case exemplifies exactly why state government officials cannot be given 24/7 “professionalism policing”
authority over students’ speech during their off-hours:
Because it is an invitation to censor the core political
speech that the First Amendment most rigorously
protects.
ARGUMENT
I. Punishing a Student for Off-Campus
Speech Solely Because it is Offensive
Contravenes This Court’s Opinion in
Morse v. Frederick
This Court has explicitly rejected the argument that
student speech—even at the K-12 level—may be
proscribed merely because it is “offensive.” See Morse
v. Frederick, 551 U.S. 393, 409 (2007) (involving a high
school student who unfurled a pro-drug banner at
a school event). The Court explained that adopting
a broad “offensiveness” rule would stretch its school
speech precedents too far: “After all,” the Court stated,
“much political and religious speech might be perceived as offensive to some. The concern here is not
that Frederick’s speech was offensive, but that it was
reasonably viewed as promoting illegal drug use.”

6
Id. Justice Alito stated it even more precisely in his
concurrence when he said that this restriction on
speech encouraging illegal drug use stood at the “far
reaches of what the First Amendment permits.” Id. at
425. He specifically stated that he joined the majority
in Morse with the understanding that the opinion did
not endorse any further extension of the government’s
ability to suppress free speech. Id.
With its own precedent as a guide, the Court cannot
let the Tenth Circuit opinion stand. For the University
to believe, as the courts below were willing to indulge,
that it was “reasonable” to extend punitive authority
over core political speech under a facially unconstitutional “civility” policy would require believing that a
college student in his mid-20’s using social media
in his off-campus personal life receives less First
Amendment protection than a middle-schooler like
Mary Beth Tinker speaking on school grounds during
class time. It is inconceivable that this is the law, and
Morse makes clear that it is not. The bounds of what
may be considered “offensive” are practically limitless,
and, even in a school setting, this Court has said such
unfettered authority to censor speech based on such a
vague standard is not permissible.
II. Political Speech Addressing Matters of
Public Concern is Entitled to the Highest
Constitutional Protection
Paul Hunt’s speech addressed one of the most divisive political issues in contemporary American society,
the legality of abortion. Time and again, this Court has
said that political speech is entitled to the highest
degree of First Amendment protection, and that any
content-based penalty on such speech is unconstitutional absent the most compelling justification.
“‘[S]peech on public issues occupies the highest rung

7
of the hierarchy of First Amendment values, and is
entitled to special protection.’” Snyder v. Phelps, 562
U.S. 443, 444 (2011) (quoting Connick v. Myers, 461
U.S. 138, 145 (1983)). Political speech cannot be
punished merely because it is “upsetting” or “arouses
contempt.” Id. at 458. Decades ago, in Terminiello v.
City of Chicago, 337 U.S. 1 (1949), Justice Douglas
wrote:
[A] function of free speech under our system
of government is to invite dispute. It may
indeed best serve its high purpose when it
induces a condition of unrest, creates dissatisfaction with conditions as they are, or even
stirs people to anger. Speech is often provocative and challenging. It may strike at prejudices and preconceptions and have profound
unsettling effects as it presses for acceptance
of an idea. That is why freedom of speech,
though not absolute…is nevertheless protected against censorship or punishment,
unless shown likely to produce a clear and
present danger of a serious substantive evil
that rises far above public inconvenience,
annoyance, or unrest.
Id. at 4 (citation omitted).
Thus in Snyder, this Court held that defendants
could not be held liable for picketing a military funeral
with signs with such offensive slogans as: “Thank
God for Dead Soldiers,” “Priests Rape Boys,” and “God
Hates Fags.” The issues these statements pertained
to—“the political and moral conduct of the United
States and its citizens, the fate of our Nation, homosexuality in the military, and scandals involving the
Catholic clergy”—were, according to the Court, matters of “public import” and thus could not be restricted.

8
Id. at 444. The Court explained that we must tolerate
this sort of “insulting,” even “outrageous” speech in
public debate “to provide adequate ‘breathing space’ to
the freedoms protected by the First Amendment.’”
Id. at 458 (quoting Boos v. Barry, 485 U.S. 312, 322
(1988)); see also United States v. Alvarez, 567 U.S.
709, 716 (2012) (“‘[A]s a general matter, the First
Amendment means that government has no power to
restrict expression because of its message, its ideas, its
subject matter, or its content’” (quoting Ashcroft v.
American Civil Liberties Union, 535 U.S. 564, 573
(2002)).
Speech does not lose its First Amendment protection
merely because it is hyperbolic or even if it includes
references to violence. This Court made that unmistakably clear in Watts v. United States, 394 U.S. 705
(1969), holding that a criminal conviction could not
stand even for speech interpreted as wishing to bring
about the violent death of the president of the United
States, when uttered in the context of a political
diatribe. Hunt’s speech thus would indisputably be
immune from government sanction anywhere other
than the campus of an educational institution. So, the
only question becomes whether First Amendment
rights are so profoundly diminished in the college
setting that punishment of core political expression
becomes permissible purely because the speech is
“disrespectful.”
They are not, and it does not.

9
III. College Students Enjoy Strong First
Amendment Rights, Especially OffCampus
While the Court has at times recognized a diminished level of First Amendment protection in the
educational setting for K-12 students, the Court has
made no such pronouncement in the context of higher
education. In fact, there is every indication that
the Court believes college students are entitled to
a heightened level of protection approaching, if not
equivalent to, that enjoyed by “real-world” speakers
outside the campus. Indeed, the Court has said that
the free exchange of ideas essential to higher education cannot exist without forceful constitutional protection:
[T]he precedents of this Court leave no
room for the view that, because of the
acknowledged need for order, First Amendment protections should apply with less force
on college campuses than in the community
at large. Quite to the contrary, ‘[t]he vigilant
protection of constitutional freedoms is nowhere more vital than in the community
of American schools.’ Shelton v. Tucker, 364
U.S. 479, 487 (1960). The college classroom
with its surrounding environs is peculiarly
the ‘marketplace of ideas,’ and we break no
new constitutional ground in reaffirming this
Nation’s dedication to safeguarding academic
freedom. Keyishian v. Board of Regents, 385
U.S. 589, 603 (1967).
Healy v. James, 408 U.S. 169, 180–81 (1972). More
recently, in Rosenberger v. Rector and Visitors of
University of Virginia, the Court noted that the danger

10
of chilling speech “is especially real in the University
setting,” explaining:
[U]niversities began as voluntary and
spontaneous assemblages or concourses for
students to speak and to write and to learn.
The quality and creative power of student
intellectual life to this day remains a vital
measure of a school’s influence and attainment. For the University, by regulation, to
cast disapproval on particular viewpoints of
its students risks the suppression of free
speech and creative inquiry in one of the vital
centers for the Nation's intellectual life, its
college and university campuses.
515 U.S. 819, 835–36 (1995) (internal citation omitted); see also McCauley v. Univ. of the Virgin Islands,
618 F.3d 232, 242-47 (3d Cir. 2010) (explaining why
“[p]ublic universities have significantly less leeway in
regulating student speech than public elementary
or high schools” and stating that Supreme Court
precedent applying in the K-12 context “cannot be
taken as gospel in cases involving public universities”).
Vivid rhetoric and imagery is commonplace in the
abortion debate, and those who choose to read about
the issue know, or should reasonably anticipate, that
they will encounter upsetting words. Indeed, even inperson on campus (to say nothing of online), colleges
lack authority to silence anti-abortion speech, regardless of whether it is offensive or inflammatory. See,
e.g., Center for Bio–Ethical Reform, Inc. v. Black, 234
F.Supp.3d 423, 435 (W.D.N.Y. 2017) (stating “there is
no question” that displaying a mural in a public space
on a college campus comparing abortion to genocide is
protected First Amendment expression). It cannot be

11
the case that a student’s right to freedom of expression
diminishes on social media, where—unlike on the
lawn of the campus—speech is voluntarily encountered by viewers who have elected to receive it, and
who can instantly leave if offended.
Even in the K-12 setting, strong First Amendment
protections apply to peaceful, non-disruptive political
speech. See Tinker, 393 U.S. at 513 (stating that
merely “causing discussion” is not sufficient grounds
for a public school to punish political speech). Tinker
is the default standard that governs all cases involving
content-based punishment for speech, unless one of a
handful of narrow exemptions—none of which is at
issue here—applies.
In a case that, like this one, involved punishment
under a college-level code of conduct, the Court
made clear that “the mere dissemination of ideas—no
matter how offensive to good taste—on a state
university campus may not be shut off in the name
alone of ‘conventions of decency.’” Papish v. Bd. of
Curators of the Univ. of Missouri, 410 U.S. 667, 670
(1973) (involving a college student who was expelled
for distributing an underground newspaper with
offensive political messages). Specifically, the plaintiff
was found to have violated provisions of the student
code that required students “to observe generally
accepted standards of conduct” and that prohibited
“indecent conduct or speech”—language difficult to
distinguish from the vague “disrespectful speech”
standard at issue here.

12
IV. Tinker Provides Ample Notice That a
“Respectful Speech” Policy is Unconstitutional, Especially When Applied to OffCampus Speech on Personal Time
While the Tinker standard may or may not apply at
the college level, a college student most certainly does
not have First Amendment rights inferior to those of
the middle- and high-school students who brought the
case in Tinker. The only cases that can be read to
suggest otherwise were not on the books at the time
of this disciplinary decision, originate from other
jurisdictions, and likely are not good law today as
a result of more recent Supreme Court authority.
Because Tinker would have put a reasonable decision
maker on notice of the bare minimum of constitutional
protection to which a speaker at the college level is
entitled, and because it is undisputed that Hunt’s
Facebook post did not cross the threshold to be
punishable under Tinker, the inquiry is over.
More to the point, it is not even certain in the K-12
context that Tinker is the proper standard for
punishment or whether some even more protective
standard applies when the student is speaking online
outside of school functions. On this point, the fractured
opinions in the Fifth Circuit’s Bell v. Itawamba County
Sch. Dist., 799 F.3d 379 (2015), in which the judges
could come to no consensus on the extent to which
Tinker must be modified to accommodate the greater
free-speech interests when a student speaks on offcampus personal time, are especially instructive. In
other words, the debate—even at the K-12 level—is
between two choices: Either Tinker applies, or a
modified version of Tinker applies with a heightened
burden that the disciplinarian must meet. There
simply is not any debate—even in the realm of K-12

13
student speech—that something less than Tinker’s
proof of “substantial disruption” would suffice to
sustain discipline for off-campus social-media speech.
The University cannot have been unaware that it
lacked “professionalism policing” authority over the
non-disruptive online speech of a 24-year-old graduate
student.
Hunt simply expressed, albeit vitriolically, his condemnation of a political movement and its adherents.
The speech neither “targeted” anyone on the campus
of the University nor even referenced the school in
any way. It was neither calculated to cause any
disturbance at the University, nor foreseeably would
do so. He did not call on anyone to commit violence
nor indicate that he planned to do so, nor was he
disciplined on the grounds that his speech was taken
as a threat or that anyone felt threatened. He was
punished for the perceived “incivility” of his comments, as if a public university could enforce civility in
political discourse under threat of discipline.
It is of great importance to all students, especially
student journalists and editorial commentators, that
the Court draw a sharp line cabining the disciplinary
authority of public universities over students’ online
speech. When a school regulates speech on school
grounds, the school is restricting the ability to communicate with other members of the immediate school
community. But when a university regulates speech
on social media, the university is restricting the student’s ability to speak with everyone: friends, family,
elected officials, the news media. This is why a university’s authority over social media must necessarily be
narrower than its authority over in-school speech
during class. Otherwise, students will be compelled
during every waking moment to conform their speech

14
to what would be suitable in a professional setting. It
takes little imagination to see how this level of control
would invite abuse. Are anti-Trump protesters who
march on Washington, D.C., carrying signs with
slogans about “grabbing her by the pussy” engaged in
“disrespectful” (or, in the words of the University’s
policy, “unduly inflammatory”) speech that will now
become punishable by college disciplinary boards?
While this case is about Facebook, if colleges have
control over everything a student says off-campus on
personal time, that subsumes not just social media but
letters to the newspaper, interviews with a television
station, remarks to a meeting of the Board of Regents,
or anything else that a college might desire to regulate. The potential to chill so much whistleblowing
speech is intolerable.
Nor is enrollment in medical school a 24/7 waiver of
all First Amendment liberties. As this Court held in
Agency for Int’l Dev. v. Alliance for Open Society
Intern., 570 U.S. 205 (2013), receipt of a government
benefit—even a purely discretionary one as to which
there is no vested entitlement—may not be conditioned on a broad waiver of First Amendment rights;
rather, a waiver requirement is constitutional only if
the scope of the waiver is narrowly tailored to restrict
no more than the speech necessary for the effective
operation of the government program. See id. at 221.
There is no connection between the ability of a medical
school to effectively teach medicine and a requirement
to refrain from uncivil political statements on social
media.
The University knew two things to a legal certainty:
First, that it could not punish Hunt for political
protest speech on the physical grounds of the campus
without, at minimum, demonstrating a material and

15
substantial disruption of school functions, and second,
that no diminished level of First Amendment protection applies to online speech as compared with inperson speech. See Reno v. American Civil Liberties
Union, 521 U.S. 844, 870 (1997) (refusing to hold that
speech on websites is entitled to a diminished level of
First Amendment protection, as is speech on FCClicensed airwaves: “our cases provide no basis for
qualifying the level of First Amendment scrutiny
that should be applied to this medium”); see also
Packingham v. North Carolina, 137 S. Ct. 1730, 1733
(2018) (finding that a broad proscription on exoffenders using social media could not be sustained,
because social media is “the modern public square” in
which people share ideas, look for jobs, and otherwise
engage in speech that once occurred in-person). This
is all the notice that a public university needs to
understand that lawful, non-disruptive political speech
on social media is beyond the government’s authority
to punish.
V. There is no Diminished First Amendment
Protection for Speech in a Professional
Training Program
The ruling below, that the University could reasonably have believed that a student’s speech loses
protection when uttered in the “professional” context,
runs squarely contrary to established First Amendment jurisprudence that this Court recently reemphasized in the case of Nat’l Inst. of Family &
Life Advocates v. Becerra, 138 S. Ct. 2361 (2018)
(hereinafter, “NIFLA”). In the NIFLA case, the Court
rejected the contention that a state can freely regulate
what employees of a pregnancy clinic say to their
clients. Writing for the Court, Justice Thomas
explained that the same rigorous level of scrutiny

16
applies to all content-based restrictions on speech,
including restrictions that apply in the professional
setting:
[T]his Court has not recognized ‘professional speech as a separate category of
speech. Speech is not unprotected merely
because it is uttered by ‘professionals.’ This
court has been reluctant to mark off new
categories of speech for diminished constitutional protection. … And it has been
especially reluctant to exempt a category of
speech from the normal prohibition on
content-based restrictions.
NIFLA, 138 S. Ct. at 2371-72 (internal quotes and
brackets omitted). Also instructive on this point is
the Eleventh Circuit’s decision in Wollschlaeger v.
Governor, 848 F.3d 1293 (11th Cir. 2017) (en banc) to
invalidate portions of a Florida statute restricting
physicians’ communications with their patients about
firearms. The court rejected the State of Florida’s
attempt to defend the statute on the grounds that
speech by medical professionals is really conduct—
that is, incidental to the delivery of services—and
therefore subject to diminished constitutional protection: “[W]e do not think it is appropriate to subject
content-based restrictions on speech by those engaged
in a certain profession to mere rational basis review.”
Id. at 1311.
The only support that the Tenth Circuit found for
concluding that a reasonable decision-maker could
have believed Hunt’s speech to be constitutionally
unprotected was derived from out-of-circuit cases
decided years after the disciplinary action. These laterdecided cases plainly cannot have been in the minds
of University disciplinarians in 2012. The primary

17
support for the misguided idea that professional
students, such as those enrolled in medical school,
might be entitled to a diminished level of free-speech
protection is the Eighth Circuit’s much-disputed
ruling in Keefe v. Adams, 840 F.3d 523 (8th Cir.
2016). There, a Minnesota student expelled from a
community-college nursing program after classmates
complained about his coarse, insulting speech on Facebook lost his bid for reinstatement, when the Eighth
Circuit fashioned a “professional speech” workaround
to the First Amendment.
There is substantial reason to doubt that Keefe, a 21 opinion that drew a vigorous dissent, was correctly
decided (or that, after NIFLA, it remains good law).
Commentators have universally denounced the Keefe
opinion as wrongly decided, calling it “absurd”4 and
“disturbing.”5
Keefe’s doubtful continued vitality aside, even the
Eighth Circuit’s expansive notion of government
punitive authority cannot be squared with what
happened here. The courts below misconceived the
core holding of Keefe that speech is punishable if it
violates “established professional standards,” which is
4

See Lindsie Trego, When a Student’s Speech Belongs to the
University: Keefe, Hazelwood, and Tatro, 16 FIRST AMEND. L.R.
98, 116 (Fall 2017) (criticizing as “absurd” the Eighth Circuit’s
notion in Keefe that a college ratifies or adopts a professional
student’s speech on off-campus personal time by keeping him
enrolled in a pre-professional program).
5

See David Hudson, Thirty Years of Hazelwood and its Spread
to College and University Campuses, 61 HOW. L.J. 491, 516
(Spring 2018) (characterizing Keefe as “disturbing” for its
departure from this Court’s strong protection of college student
speech and its implication that colleges’ punitive authority
follows students throughout their lives).

18
to say, the formal standards of a regulated profession
that the student intends to enter. The court below
shorthanded this standard into “professionalism,” but
these are two very different things. The University did
not purport to be punishing Hunt for violating the
standards of the medical profession. Rather, the punishment was for violating the University’s own civilspeech code, the type of code that courts have
repeatedly struck down as unconstitutionally overbroad. See., e.g., Doe v. Univ. of Mich., 721 F. Supp.
852, 863-64 (E.D. Mich. 1989) (invalidating university
speech code, which contemplated sanctions for speech
that “stigmatizes” others or is “demeaning,” and stating that universities cannot penalize speech “simply
because it was found to be offensive, even gravely so,
by large numbers of people”). Nothing in the Keefe
case—or in any accepted understanding of the First
Amendment—can be read to invest a public university
with punitive authority over “unprofessional” speech
during personal off-hours time.
The notion that a public university can punish a
student for sharply worded political opinions on the
grounds of “unprofessionalism” overlooks the reality
that, even in the professional world, there are First
Amendment boundaries that government regulators
may not cross. For instance, in Schoeller v. Bd. of
Registration of Funeral Dirs., 977 N.E.2d 524 (Mass.
2012), the Massachusetts Supreme Court decided that
the First Amendment precluded revoking the license
of a funeral director on the basis of “unprofessional
speech,” the grounds for which Hunt was disciplined
here. In Schoeller, a funeral director lost his license
after giving a newspaper interview during which, in
an attempt at humor, he described dissecting human
bodies in ghoulish detail. The court observed that,
although the funeral director was speaking about his

19
work, he was doing so (as was Hunt) outside of his
professional capacity; consequently, speech could be
punished only if the regulation was narrowly tailored
to serve a compelling governmental interest. Id. at
534.
As Schoeller illustrates, it is insufficient for a public
university to point either to its own internal “civility
codes” or (as with the Keefe case) to point to the
external standards of a professional regulatory body,
without inquiring whether those codes and standards
can be constitutionally applied to the speech at issue.
They cannot, and the University must necessarily
have known that when punishment was imposed.
To be sure, a public university may enforce narrowly
tailored prohibitions on speech necessary for its academic programs to function. So, had Hunt been using
Facebook to disseminate privileged information
from his clients’ medical records, he would forfeit
First Amendment protection, whether viewed under
Tinker’s “substantial disruption” standard or under
“real-world” First Amendment standards, because of
the obvious invasion of legally protected privacy
rights. But that is quite far from the case here.
Because there is no basis to believe that profane
political commentary on social media is a punishable
violation of “established professional conduct standards,” there was no “accepted” standard on which to
base disciplinary action, even if Keefe were to apply.
VI. Compelling a Speaker to Moderate His
Political Expression Violates Clearly
Established Supreme Court Precedent
The court below failed to thoroughly analyze
the First Amendment infirmity of the University’s
“respectful speech” policy or the way the policy was

20
applied in Hunt’s case. The policy enforced against
Hunt provides that “the right to address issues of
concern does not grant individuals license to make
untrue allegations, unduly inflammatory statements
or unduly personal attacks, or to harass others.” As
there is no allegation that Hunt said anything
factually false, attacked any identifiable individual, or
directed the post toward anyone in a harassing
manner, the university’s disciplinary action must rest
on the phrase “unduly inflammatory”—and that is the
question with which the district court failed to
grapple: A policy empowering government officials to
impose punishment for “unduly inflammatory” speech
is unconstitutionally overbroad.
A prohibition that sweeps in harmless or even
societally beneficial speech along with the invidious
speech it targets is an unconstitutionally overbroad
policy. Wash. State Grange v. Wash. State Republican
Party, 552 U.S. 442, 449 (2008); see also United States
v. Stevens, 559 U.S. 460 (2010) (striking down overbroad statute criminalizing animal cruelty videos,
which encompassed within its prohibition videos of, for
example, hunters shooting their prey). The Tenth
Circuit—in a case that, unlike the Keefe case, was
actually binding legal precedent in New Mexico at
the time—drew a roadmap for recognizing an unconstitutionally overbroad prohibition on speech in Nat’l
Gay Task Force v. Bd. of Educ. of City of Okla. City,
729 F. 2d 1270 (10th Cir. 1984) (hereinafter cited as
“NGTF”). There, the Court struck down on overbreadth grounds a statute exposing teachers to discipline for “public homosexual conduct,” which was
expansively defined to include advocacy speech about
homosexuality. The Court readily found the prohibition to be unconstitutionally broad and—notably—
declined to read into the statute an implicit “Tinker

21
threshold” that punishment could apply only where
speech substantially disrupted school operations. Id.
at 1274. The statute in that case applied to speech that
might “adversely affect” students or co-workers, but
the Court found that to be an overly sweeping prohibition lacking in materiality: “Any public statement that
would come to the attention of school children, their
parents, or school employees that might lead someone
to object to the teacher's social and political views
would seem to justify a finding that the statement
‘may adversely affect’ students or school employees.”
Id. at 1275.
If the prohibition in NGTF was unconstitutionally
broad, then the prohibition here is doubly so. Unlike
in the NGTF case, there is not even the veneer of an
“adverse effect” requirement in the University’s policy;
any “unduly inflammatory” speech appears to be
regarded as punishable, regardless of the context and
regardless of its impact (or, for that matter, regardless
of whether anyone reads it at all).
Further, the courts below failed to analyze the
university’s punishment as a matter of “compelled
speech,” an especially noxious and disfavored brand
of censorship. See, e.g., Miami Herald Publ’g Co. v.
Tornillo, 418 U.S. 241 (1974) (striking down “equal
time” statute that required newspapers to publish
columns responding to their editorials). As this Court
has aptly stated, “the First Amendment guarantees
‘freedom of speech,’ a term necessarily comprising the
decision of both what to say and what not to say.” Riley
v. Nat’l Federation of Blind, 487 U.S. 781, 798-97
(1988). By ordering Hunt to publish what was termed
a “professionally appropriate” version of his Facebook
post—see Hunt v. Bd. of Regents, 338 F.Supp.3d
1251, 1267 (D.N.M. 2018)—University administrators

22
crossed the line from punishing speech to compelling
speech. If a speaker publishes a toned-down version of
his beliefs, it may convey a lack of forceful conviction.
Hunt’s choice of words was his to make, not the state’s.
And whatever uncertainty there might be about the
protection of First Amendment rights in the educational setting, we know for a fact that educational
institutions receive no special license to compel
speech, because this Court’s most famous pronouncement in the realm of compelled speech, West Virginia
Bd. of Educ. v. Barnette, 319 U.S. 624 (1943), involved
a public school. As Justice Jackson memorably declared, in holding that a K-12 school could not force a
student to stand and recite the Pledge of Allegiance in
derogation of her beliefs:
If there is any fixed star in our constitutional constellation, it is that no official, high
or petty, can prescribe what shall be orthodox
in politics, nationalism, religion, or other
matters of opinion or force citizens to confess
by word or act their faith therein.
Id. at 642.
And if there is any “fixed star” in the realm of
liability for violating the First Amendment, it is that
no official, high or petty, can claim to be ignorant of
the prohibition against putting words into a citizen’s
mouth. The law can scarcely get more “clearly
established.” The University’s directive for Hunt to
rewrite and re-post a toned-down version of his antiabortion commentary—which would give the impression that his anti-abortion views are milder than they
really are, and that he regrets having expressed
forceful opposition—violated 75 years’ worth of settled
First Amendment precedent. The University cannot
have reasonably believed otherwise, and the Tenth

23
Circuit plainly erred in affording the University the
undeserved benefit of qualified immunity.
CONCLUSION
For all of the aforesaid reasons, the petition for
certiorari should be granted and the decision of the
Tenth Circuit U.S. Court of Appeals vacated.
Respectfully submitted,
FRANK D. LOMONTE
THE BRECHNER CENTER FOR
FREEDOM OF INFORMATION
3208 Weimer Hall
Gainesville, FL 32611
(352) 392-2273
flomonte@ufl.edu

MICHAEL C. HIESTAND
Counsel of Record
STUDENT PRESS LAW CENTER
1608 Rhode Island Ave NW
Suite 211
Washington, DC 20036
(202) 785-5450
mhiestand@splc.org

Counsel for Amicus Curiae
May 18, 2020

